No.

In The

Supreme Court of the United States
____________
EMANUEL GETTINGER, SOUTH FERRY BUILDING COMPANY, AARON WOLFSON, ABRAHAM
WOLFSON, ZEV WOLFSON, UNITED CONGREGATIONS MESORA, SOUTH FERRY #2 LP,
TURTLE CAY PARTNERS, COLDBROOK ASSOCIATES PARTNERSHIP, JAMES LOWREY,
AND THE ESTATE OF MARIANNE LOWREY,
V.

Petitioners,

IRVING H. PICARD, Trustee for the Liquidation of Bernard L. Madoff
Investment Securities LLC, AND SECURITIES INVESTOR PROTECTION CORPORATION,
Respondents.
____________
ON PETITION FOR A WRIT OF CERTIORARI TO THE

UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

____________
PETITION FOR A WRIT OF CERTIORARI
____________
CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel for Petitioners Emanuel Gettinger, South Ferry
Building Company, Aaron Wolfson, Abraham Wolfson, Zev Wolfson, United
Congregations Mesora, South Ferry #2 LP, Turtle Cay Partners, Coldbrook
Associates Partnership, James Lowrey, and The Estate of Marianne Lowrey, and a
member of the Bar of this Court, hereby certify that on the 30th day of March, 2021,
I caused to be served a single copy of the Petition for a Writ of Certiorari in the abovereferenced case by first-class mail, postage prepaid, upon counsel for Respondents as
listed below:

David J. Sheehan
Baker & Hostetler LLP
45 Rockefeller Plaza
New York, NY 10111
(212) 589-4200
bhaa@bakerlaw.com
Counsel for Respondents
Irving H. Picard, Trustee for the Liquidation of Bernard L. Madoff
Investment Securities LLC
Kenneth J. Caputo
General Counsel
Securities Investor Protection Corp.
1667 K Street, NW
Suite 1000
Washington, DC 20006
(202) 371-8300
kcaputo@sipc.org
Counsel for Respondent Intervenor
Securities Investor Protection Corp.
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email addresses.
I further certify that all parties required to be served have been served.

By

Gregory G. Garre
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
Counsel for Petitioners

2

